Audit Report
Return to the USDOJ/OIG Home Page
The Immigration and Naturalization Service's
Airport Inspection Facilities
Report No. 01-03
December 2000
Office of the Inspector General
EXECUTIVE SUMMARY
In 1998, the Immigration and Naturalization Service (INS) processed 39.7 million alien passengers through Federal Inspection Services (inspection) areas at about 150 airports.  INS designates which airports may receive international passengers, based on whether individual airlines and airport authorities furnish suitable landing stations in accordance with the Immigration and Nationality Act of 1952 (Act).  INS is authorized to withdraw such designations if circumstances warrant.
The INS, along with other federal inspection agencies, approves the design of inspection areas.  Concerned about security and the quality of its airport inspection facilities, INS asked the Office of the Inspector General to review such facilities at international airports.  INS was particularly concerned about the adequacy of "hold rooms" -- secure confinement rooms where INS detains aliens who are potentially inadmissible.
From June through October 1999, we performed on-site reviews at 12 international airports and received 30 responses to surveys sent to INS staff at 37 additional international airports.  The 42 airports are listed in Appendix I of the report and account for 75 percent of the international passengers processed through primary inspection areas in FY 1998.
In brief, deficiencies were found and reported at all 42 airports.  Three airports we reviewed, John F. Kennedy, Los Angeles, and Miami, handled the largest number of passengers and needed some of the most extensive modifications.  Inspection areas were poorly designed and constructed, and had numerous monitoring, surveillance, and communication deficiencies.  Hold rooms were too small and did not permit separate confinement of male, female, and juvenile detainees.  Thirteen airports had no hold rooms.  As a result, airports were vulnerable to illegal entry, escapes, injuries, health hazards, and the hiding or disposing of contraband or documents.
These conditions existed primarily because INS had not dealt effectively with airlines and airport authorities by enforcing provisions of the Act when inspection facilities were unacceptable.  We found that INS had not pursued a program to require upgrading of older inspection facilities, construction could take place without INS' oversight or approval, and INS' system of on-site reviews needed improvement.  INS did not have performance indicators under the Government Performance and Results Act that relate to the adequacy of inspection facilities.  By not exercising its authority to impose sanctions where necessary, including restriction of landing station designations, INS undermined its ability to influence airlines and airport authorities to meet standards.
The details of our work are contained in the Finding and Recommendations section of the report.  Our audit objectives, scope, and methodology are contained in Appendix I.  A glossary of terms used in the report is contained in Appendix II, and the locations where specific deficiencies were noted are contained in Appendix III.